Case 8:18-cv-02760-SDM-CPT Document 1-4 Filed 11/09/18 Page 1 of 5 PagelD 44
Case; 17-11985

Date Filed; 05/31/2017

Page: 1 of 4

rN THE UNITED STATES COURT OF APPEALS
FOR TOE ELEVENTH CIRCUIT

No, 17-119S5-A
IN RE: EDWARD DONALD OBERWISE,
Petitioner.

Application for Leave to File a Second or Successive
Habeas Corpus Petition, 28 U.S.C. § 2244(b)

Before: HULL, MARCUS and ROSENBAUM, Circuit Judges.
BY THE PANEL:
Pursuant to 28 U.S.C. § 2244(b)(3)(A), Edward Donald Oberwise has filed an application
seeking an order authorizing the district court to consider a second or successive petition for a writ
of habeas corpus. Such authorization may be granted only if:
(A) the applicant shows that the claim relies on a new rule of constitutional
law, made retroactive to cases on collateral review by the Supreme Court, that was
previously unavailable; or
(B)(i) the factual predicate for the claim could not have been discovered
previously through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that, but for constitutional error, no reasonable factfinder would have
found the applicant guilty of the underl ying offense.
28 U.S.C. § 2244(b)(2).

“The court of appeals may authorize the filing of a second or

successive application only if it determines that the application makes a prima facie showing that

faye^ 7

Case 8:18-cv-02760-SDM-CPT Document 1-4 Filed.11/09/18 Page 2 of 5 PagelD 45
Case: 17-11985

Date Filed: 05/31/2017

Page: 2 of 4

the application satisfies the requirements of this subsection.” Id. § 2244(b)(3)(C); see also
Jordan v. Sec'y, Dep’t of Cons., 485 F.3d 1351, 1357-58 (11th Cir. 2007) (explaining that this
Court’s determination that an applicant has made aprima facie showing that the statutory criteria
have been met is simply a threshold determination).
Moreover, under 28 U.S.C. § 2244(b)(1), “[a] claim presented in a second or successive
habeas corpus application under [28 U.S.C] section 2254 that was presented in a prior application
shall be dismissed.” 28 U.S.C. § 2244(b)(1). In In re Baptiste, 828 F.3d 1337 (11th Cir. 2016),
we held that a later request of a prisoner who has previously filed a request for authorization to file
a second or successive petition based on the same claim must be dismissed, because § 2244(b)(1)
prohibited us from considering such a successive request. Jd. at 1339-40. Baptiste, and other
cases, have also recognized that the law-of-the-case doctrine may similarly preclude a prisoner
from seeking relief on a ground already presented to this Court. See id at 1340-41 \lnre Lambrix,
776 F.3d 789, 793-94 (11th Cir. 2015) (quotation omitted).
In his application, Oberwise indicates that he wishes to raise a single claim in a second or
successive § 2254 petition. Oberwise alleges that the state trial court erred when it listened to
recordings of phone calls while in chambers arid outside of his presence, and that the transcripts of
the phone calls, which contained statements that were not on the recordings, were not admitted into
evidence. Although Oberwise concedes that he has previously raised this claim, he asserts in his
application that his claim relies on a “new rule of constitutional law,” citing several Supreme Court
cases that were decided between 1963 and 2007.

' »* • ---

Case 8:18-cv-02760-SDM-CPT Document 1-4 Filed 11/09/18 Page 3 of 5 PagelD 46
Case: 17-11985

Date Filed: 05/31/2017

Page: 3 of 4

Obcrwise's claim fails to meet the statutory criteria, Because he unsuccessfully sought,
on two prior occasions, our leave to file tire same claim, we must dismiss his application. See
Baptiste, 828 F.3d at 1339-40. i
Accordingly, Oberwisc’s application is DISMISSED.

We also note that Oberwise previously raised his proposed claim in his initial § 2254
petition from 2011, which the district court dismissed based on procedural default. Accordingly,
even if Oberwise had not previously sought our leave to file his claim, we would still deny his
application. 28 U.S.C. § 2244(b)(1); see also In re Mills, 101 F.3d 1369,1371 (11th Cir. 1996).
Moreover, although Oberwise has cited to several Supreme Court cases and alleged that they
created a “new rule of constitutional law,” they were ail issued between 1963 and 2007 and were
therefore available at the time of Oberwise’s first § 2254 petition. Thus, they were not
“previously unavailable” at the time of his petition and cannot now serve as a “new rule of
constitutional law.” See 18 U.S.C. § 2244(b)(2)(A).
i

Paqe~ *1

Case 8:18-cv-02760-SDM-CPT Document 1-4 Filed 11/09/18 Page 4 of 5 PagelD 47
Case: 17-11985

Date Filed: 05/31/2017

Page: 4 of 4

ROSENBAUM, Circuit Judge, concurring:
I agree that In re Baptiste, 828 F.3d 1337 (1 lih Cir. 2016), requires us to dismiss Edward
Oberwise’s request for authorization to file a second or successive collateral claim. I write
separately because I continue to believe that Baptiste's interpretation of 28 U.S.C. § 2244(b)(1)
to prohibit us from considering a successive request for authorization to file a second or
successive collateral claim where a prior request for authorization raising the same claim was
denied, is incorrect as a matter of law. See In re Jones, 830 F.3d 1295 (11th Cir. 2016)
(Rosenbaum and Jill Pryor, JJ., concurring).

Section 2244(b)(1) simply contains no such

limitation. See id. As for § 2244(b)(3)(E), it likewise says nothing about successive requests
for authorization. And where we know that, as a matter of law, we have incorrectly denied a
prior request for authorization under the abbreviated 30-day gatekeeping procedure required by
AEDPA, we should be able to correct our error and provide the petitioner with a real opportunity
to have his case considered on the merits. Anything less flirts with violating the Suspension
Clause.
Nevertheless, even in the absence of Baptiste, I would deny Oberwise’s pending request
for authorization under the law-of-thc-case doctrine. Under the law-of-the-case doctrine, a court
may issue decisions in conflict with its prior rulings in tire case only “where (1) a subsequent trial
produces substantially different evidence, (2) controlling authority has since made a contrary
decision of law applicable to that issue, or (3) the prior appellate decision was clearly erroneous
and would work manifest injustice.” In re Lambrlx, 776 F.3d 789, 793-94 (11th Cir. 2015)
(quotation omitted). Here, Oberwise has not shown that any exception applies. As a result, even
without Baptiste, I would find that his successive request for authorization must be denied.

Pa.je.l0

Case: 19-14593

Date Filed: 12/12/2019

Page: 1 of 4

IN THE UNITED STATES COURT OF APPEALS

FILED
U.S- COURT OF APPEALS
ELEVENTH CIRCUIT

FOR THE ELEVENTH CIRCUIT
i

5

No. 19-14593-J

I
l

David J. Smith |
Clerk
vr.

Li:*.;. *. .

IN RE: EDWARD DONALD OBERWISE,
Petitioner.

Application for Leave to File a Second or Successive
Habeas Corpus Petition, 28 U.S.C. § 2244(b)

Before: WILLIAM PRYOR, NEWSOM and BRANCH, Circuit Judges.
BY THE PANEL:
Pursuant to 28 U.S.C. § 2244(b)(3)(A), Edward Donald Oberwise has filed an application
seeking an order authorizing the district court to consider a second or successive petition for a writ
of habeas corpus. Such authorization may be granted only if:
(A) the applicant shows that the claim relies on a new rule of constitutional
law, made retroactive to cases on collateral review by the Supreme Court, that was
previously unavailable; or
(B)(i) the factual predicate for the claim could not have been discovered
previously through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that, but for constitutional error, no reasonable factfinder would have
found the applicant guilty of the underlying offense.
28 U.S.C. § 2244(b)(2). “The court of appeals may authorize the filing of a second or successive
application only if it determines that the application makes a prima facie showing that the

I4

4

DEC 12 2019

Case: 19-14593

Date Filed: 12/12/2019

Page: 2 of 4

application satisfies the requirements of this subsection.” Id. § 2244(b)(3)(C); see also Jordan v.
Sec’y, Dep’t of Corrs., 485 F.3d 1351, 1357-58 (11th Cir. 2007) (explaining that this Court’s
determination that an applicant has made a prima facie showing that the statutory criteria have
been met is simply a threshold determination).
Section 2244(b)(1) of Title 28, however, provides that “a claim presented in a second or
successive habeas corpus application under section 2254 that was presented in a prior application
shall be dismissed.” 28 U.S.C. § 2244(b)(1). A “claim” remains the same so long as “[t]he basic
thrust or gravamen of [the applicant's] legal argument is the same.” In re Hill, 715 F.3d 284, 294
(11th Cir. 2013). For applications requesting authorization to file a second or successive petition
pursuant to § 2254, this Court has consistently applied § 2244(b)(1) to prohibit the filing of a claim
that is the same as one presented in a petitioner’s initial habeas petition before the district court.
See In re Everett, 797 F.3d 1282,1291 (11th Cir. 2015); In re Lambrix, 776 F.3d 789, 795-97 (11th
Cir. 2015). Moreover, we have denied an application where a state prisoner sought leave to raise
a claim he “presented in a prior petition,” albeit with new supporting evidence. See In re Mills,
101 F.3d 1369 (11th Cir. 1996); see also In In re Baptiste, 828 F.3d .1337, 1339-40 (11th Cir.
2016). Similarly, “[t]he grant or denial of an authorization by a court of appeals to file a second
or successive application . . . shall not be the subject of a petition for rehearing

.” 28 U.S.C.

§ 2244(b)(3)(E).
In his application, Oberwise wishes to raise two claims in a second or successive § 2254
• motion. First, he alleges his actual innocence because the state prosecutor withheld the prior
testimony of a witness who testified during his criminal proceedings. According to Oberwise, the

fhge*2

Case: 19-14593

Date Filed: 12/12/2019

Page: 3 of 4

prior testimony would have affected the witness’s credibility, and the factfinder was prevented
from determining the witness’s credibility. He asserts that this claim relies on both a new rule of
law and newly discovered evidence. As to the new rule of law prong, Oberwise relies on Teague
v. Lane, 489 U.S. 288 (1989). As to the newly discovered evidence-prong, he states that the
prosecutor withheld “exculpatory testimony in a particular transcript to a pre-text phone call,” and
the transcript was unavailable to the defense in discovery, during trial, and during appellate review.
(Id.).
Second, Oberwise alleges manifest injustice because without one of the witness’s complete
testimony he was never convicted beyond a reasonable doubt, thereby resulting in a manifest
injustice. He asserts that this claim relies on newly discovered evidence because the state
prosecutor presented perjured testimony by suppressing prior testimony from a key witness that
would have shown nothing sexual had occurred between the witness and him.
We lack jurisdiction to consider Oberwise’s application because he raised the same claims
in several prior applications that were denied or dismissed. See In re Everett, 797 F.3d at 1291; In
re Hill, 715 F.3d at 294. Specifically, his arguments that the state failed to disclose a transcript, a
witness’s testimony was inconsistent with her statements in that transcript, and that the state
presented false, or perjured, testimony are the same as those he presented in his 2017 and 2018
applications. Further, Oberwise has previously relied on Teague in his August 2018 application,
which we dismissed. Although Oberwise’s current application attempts to state his prior claims
in a different manner, the basic gravamen of the claims is the same. In re Hill, 715 F.3d at 294.

fk^e-S

